                     WHITE PAPER


Leave Benefits and Paid
Holidays Benchmarking
    May 1, 2014




                  Report Number HR-WP-14-001
                                                       EXECUTIVE SUMMARY

                                                                         May 1, 2014
                                      Leave Benefits and Paid Holidays Benchmarking
                                                        Report Number HR-WP-14-001


Title 39 U.S.C. requires the compensation and benefits of U.S. Postal Service
employees be comparable to those of private sector employees. The Postal Service
offers a leave benefits program similar to those other federal entities offer and observes
10 federal holidays. Paid leave and holidays for about 90 percent of 491,000 career
Postal Service employees are covered by collective bargaining agreements with the
four major postal unions. Leave benefits cost the Postal Service more than $5 billion in
fiscal year 2013.

The Postal Service’s leave benefits have generally remained unchanged for decades.
They offer a set number of days employees can use for reasons specific to that benefit.
Employees who take time off must classify the type of leave they use, which increases
administrative requirements. Conversely, the leave benefits in the private sector have
changed significantly, resulting in reduced costs and time employees are away from
work. Specifically, the private sector transitioned to paid-time-off (PTO) plans to enable
their employees to manage their days at their own discretion. Employees no longer
have to worry about classifying their time off and the plans are simplified and easier for
employers to track and manage. PTO plans have become increasingly effective,
especially among industries such as manufacturing and service, because unscheduled
leave can affect productivity, disrupt operations, and increase labor costs.

At the request of the Postal Service, we benchmarked Postal Service leave benefits and
paid holidays with six private sector companies and two government agencies. We
found:

   Since 2000, four of the six private sector companies transitioned to a combined
    leave benefits program, consolidating leave into fewer categories. In addition, when
    they transitioned, two of those four reduced the overall number of leave days
    provided to employees.

   All companies based the number of leave days on employee tenure.

   The number of holidays benchmarked organizations offered their employees ranged
    from 8 to 12 days per year.

   Three of the eight benchmarked organizations had unionized workforces, but only
    one private sector company had different leave benefits for unionized employees.


                                             i
Leave Benefits and Paid                                                        HR-WP-14-001
 Holidays Benchmarking



   Two private sector companies and both government agencies maintained separate
    annual, sick, and personal leave categories.

   Two of the six private sector companies cash out leave annually while the two
    government agencies cash out leave when employees separate from the
    organization.

   All but one company allowed employees to carry over leave days; five of them limit
    the carryover amount to between 3 and 36 days.

Although the Postal Service's leave benefits and paid holidays are comparable in many
ways to those offered in the private sector, some differences exist. Most notably, Postal
Service employees can carry over 55 or more days of annual leave each leave year,
and employees are not limited by the amount of sick leave they can carry over.
However, the benchmarked companies provided much more restrictive leave carryover.
Limiting the leave employees can carry over decreases the money the company must
pay out upon employee separation and reduces the money it must set aside to cover
employee payments for these leave balances. If the Postal Service did significantly
reduce sick leave carryover, though, the availability of leave for short-term situations
such as maternity would be affected. Therefore, the need for a short-term disability
program would be a critical consideration in any plan to change the leave carryover
benefit.

While modifications to the Postal Service’s current leave benefits program may reduce
costs and the time employees are away from work, challenges exist in pursuing any
changes. Challenges include legal requirements, union negotiations, information
technology upgrades to support changes, and assessments of how benefit changes
impact employees. Understanding and addressing these challenges would be critical to
successfully implement any modifications to the Postal Service’s current leave benefits
program. Most notably, the Postal Service must maintain categories for annual and sick
leave; therefore, the need for legislative changes would be a critical consideration in any
plan to eliminate the leave categories from Postal Service benefits. Also, the Postal
Service cannot unilaterally change benefits for employees covered by collective
bargaining agreements. Because benefits are only one of many components negotiated
with the unions, the Postal Service may be forced to pursue changes to employee leave
benefits at the cost of other negotiated components. Also, for certain employees not
covered by collective bargaining agreements, the Postal Service has an obligation to
consult with management associations about programs affecting those employees as
well. This can impact its negotiation and consultation strategies.




                                             ii
May 1, 2014

MEMORANDUM FOR:            JEFFREY C. WILLIAMSON
                           CHIEF HUMAN RESOURCES OFFICER AND
                            EXECUTIVE VICE PRESIDENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   White Paper ― Leave Benefits and Paid Holidays
                           Benchmarking (Report Number HR-WP-14-001)

Attached are the results of our review of Leave Benefits and Paid Holidays
Benchmarking (Project Number 13YG031HR000). Leave benefits and paid holidays are
an integral component of the U.S. Postal Service's personnel costs. This paper provides
benchmarking results with six private sector organizations and two government
agencies and a summary of challenges associated with implementing benefit changes.

If you have any questions or need additional information, please contact Lorie Nelson,
director, Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Leave Benefits and Paid                                                                                           HR-WP-14-001
 Holidays Benchmarking


                                                  TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Postal Service Benefits ................................................................................................... 2

Benchmarked Company Benefits .................................................................................... 4

Challenges ...................................................................................................................... 9

Conclusion .................................................................................................................... 10

Appendix A: Leave Benefit Key Features of Benchmarked Organizations .................... 11

Appendix B: Challenges ................................................................................................ 13

   Legal Requirements ................................................................................................... 13

   Employee Unions ....................................................................................................... 13

   Information Technology ............................................................................................. 13

   Employee Impact ....................................................................................................... 14
Leave Benefits and Paid                                                                              HR-WP-14-001
 Holidays Benchmarking


Introduction

Leave and paid holidays are one component of an employee's benefit package, which
also includes pay, insurance, and retirement. This component is a time-off incentive –
the time an employee is away from work and still receiving pay – and includes annual,
personal, sick, military,1 and holiday leave.

Traditionally, employers have separated leave benefits into different categories for
annual, sick, and personal leave. Employers who provide traditional leave benefit
programs offer a set number of days their employees can use for reasons specific to
that benefit. Employees who take time off under these plans have to classify the type of
leave they are using, which increases administrative requirements. According to the
most recent WorldatWork survey2 on paid time-off programs and practices, traditional
programs are still the most common, especially among organizations with more than
20,000 employees.

Paid-time-off (PTO) plans have become increasingly popular in the U.S. among
employers. PTO is a combined leave plan, which consolidates paid leave into one
comprehensive program. According to the 2013 Society for Human Resource
Management (SHRM) Examining Paid Leave in the Workplace report, 52 percent of
organizations have transitioned from a traditional leave benefit plan to a PTO plan.
Earlier data indicate that 50 percent of nonprofit organizations and 43 percent of
privately owned for-profit organizations offer PTO plans, compared with 22 percent of
government agencies.3 Employers who offer PTO plans enable their employees to
manage their days at their own discretion. Employees no longer have to worry about
classifying their time off and the plans are simplified and easier for employers to track
and manage. PTO plans have become increasingly effective, especially among
industries such as manufacturing and service, because unscheduled leave can affect
productivity, disrupt operations, and increase labor costs.

The largest component of the U.S. Postal Service's total expenses is employee costs,
which totaled $55 billion — 76 percent of total expenses — in fiscal year (FY) 2013.
Employee costs include leave benefits, which cost the Postal Service more than $5
billion in FY 2013. Leave is part of a larger benefits and compensation package, which
impacts current and future Postal Service liabilities.



1
  An authorized absence from postal duties for hours the employee would have worked during his or her regular
schedule, without loss of pay, time, or performance rating, granted to eligible employees who are members of the
National Guard or reserve components of the armed forces.
2
  Paid Time Off Programs and Practices – A Survey of WorldatWork Members, May 2010.
3
  We did not validate the information in this study.
                                                           1
Leave Benefits and Paid                                                                                   HR-WP-14-001
 Holidays Benchmarking


At the Postal Service's request, and with the assistance of a contractor, we compared
the Postal Service’s leave benefits and paid holidays to programs in the private and
government sector. In addition, we identified opportunities and challenges related to the
Postal Service incorporating changes to its benefits program.

Postal Service Benefits

Title 39 requires the Postal Service to offer employee compensation and benefits that
are comparable to those the private sector pays employees for comparable work.
Further, annual and sick leave are obligations of the Postal Service.4 The Postal Service
currently offers its employees a leave benefits program similar to what other federal
entities offer their employees. It includes annual, sick, and military leave, as well as paid
holidays. It also offers an annual leave exchange program and personal absence time
as additional compensation and benefit options.

Annual Leave

Postal Service employees may use annual leave for rest, recreation, personal, or
emergency purposes. Most employees accrue between 13 and 26 days of paid annual
leave based on their tenure. However, the Postal Service recently reduced this benefit
for all nonexecutive, nonbargaining, nonlaw enforcement employees, including
supervisory, managerial, and forensic employees, hired after October 1, 2012.
Employees in these categories accrue between 10 and 20 days. The Postal Service
credits annual leave to full-time employees at the beginning of the leave year,5 while it
credits annual leave for part-time employees at the end of each pay period. Postal
Service employees can carry over 55 or more days of annual leave each leave year
depending on their tenure and job type.

Sick Leave

Postal Service employees may use sick leave for illness, injury, pregnancy, and medical
and dental examinations and treatment. Sick leave is accrued and credited at the end of
each pay period in which it is earned for an annual total of 13 days for most employees.
However, similar to annual leave, nonexecutive, nonbargaining, nonlaw enforcement
employees, including supervisory, managerial, and forensic employees, hired after
October 1, 2012, earn 9.75 days each year. Part-time employees earn 1 hour for each
unit of 20 hours in a pay status, up to 104 hours, or 13 days per leave year. Employees
are not limited by the amount of sick leave they carry over each leave year.6 Public Law
111-84, National Defense Authorization Act for fiscal year 2010, amended 5 U.S.C.,
Government Organization and Employees, to include sick leave credit in the Federal

4
  Title 39 U.S.C. §§ 1003 (a) and 1005 (e) – Employment Policy.
5
  The year beginning with the first day of the first complete pay period in a calendar year and ending on the day
before the first day of the first complete pay period in the following calendar year.
6
  The Postal Service does not have a short-term disability program that pays a percentage of an employee's salary
for a specified period if the employee is ill or injured and cannot perform the duties of his or her job. Instead, sick
leave ensures employees against loss of pay if they are incapacitated for the performance of duties.
                                                               2
Leave Benefits and Paid                                                                             HR-WP-14-001
 Holidays Benchmarking


Employees Retirement System (FERS) annuity computation. As of January 1, 2014,
100 percent of sick leave balances can be used as a service credit in the computation of
the retirement annuity. According to Postal Service management, this suggests a desire
to encourage sick leave conservation by FERS employees, and the law endorsed the
existing sick leave program by adding to its value. Eliminating sick leave as a separate
category would be inconsistent with this action, and it raises potential legal concerns.

Military Leave

The Postal Service grants military leave to eligible employees who are members of the
National Guard or reserve components of the armed forces. Full-time employees
receive 15 days of military leave each fiscal year and can carry over up to 15 days to
the next fiscal year. Certain law enforcement military activities allow for 22 days per
year. Beyond general military leave allowances, employees can use annual leave or
leave without pay.7 Employees can also use sick leave in medical situations.

Holidays and Floating Holidays

The Postal Service observes the following 10 holidays:

New Year's Day.
Martin Luther King Jr.'s Birthday.
Washington's Birthday (Presidents' Day).
Memorial Day.
Independence Day.
Labor Day.
Columbus Day.
Veterans Day.
Thanksgiving.
Christmas.

Some Postal Service bargaining employees8 are also eligible to receive a floating
holiday. A floating holiday allows an eligible employee to work on a holiday, at his or her
option, and have his or her annual leave balance credited with up to 8 hours of annual
leave in lieu of holiday leave pay.

Annual Leave Exchange

The Postal Service's annual leave exchange program allows eligible employees to
exchange leave they would otherwise earn during the next leave year for cash.
Accumulated leave cannot be exchanged under this program. The terms and conditions
for exchanging leave vary for each classification of employee. The Postal Service, in

7
 A temporary nonpay status and absence from duty that, in most cases, is granted at the employee's request.
8
 A career or noncareer employee who is represented by a labor organization (union) that negotiates with the Postal
Service for wages, hours, and other terms and conditions of employment.
                                                         3
Leave Benefits and Paid                                                                           HR-WP-14-001
 Holidays Benchmarking


consultation with its management associations, determines the minimum and maximum
number of hours allowed each year, as well as the leave balance the employee must
have at the end of the leave year in which the election is made, and any other
requirements.

Personal Absence

The Postal Service offers its nonbargaining unit salary employees personal absence
time that is considered PTO and is not accrued leave. Personal absence is not charged
as annual leave, sick leave, or any other paid leave category. Normally, personal
absence time is limited to no more than half an employee’s work day and does not carry
over from pay period to pay period. This leave may be used for personal business or
emergency purposes.

Benchmarked Company Benefits

We benchmarked with eight organizations across the postal, energy, parcel delivery,
education, and aerospace industries, as well as the government. Three of the eight
organizations had unionized workforces, one operates globally, and four of them
operate nationwide. We focused on how the organizations structure their leave benefits,
changes they made to leave benefits, and the corresponding reasons for those
changes. We found the organizations took a variety of approaches, including traditional
leave plans with separate leave categories, plans that combine leave types into a single
category, and hybrid plans that include a variation of both. In addition, they include
additional components such as personal leave,9 military leave, leave carryover, and
leave cash-out options. See Appendix A for a snapshot of leave benefits and key
features of the private and government benchmarked organizations.

We also reviewed data from the Bureau of Labor Statistics (BLS) regarding private
sector paid leave. While Postal Service benefits are similar to those offered in the
private sector, private sector companies with PTO plans offer less paid leave days than
the average offered in the private sector and the Postal Service.

Paid-Time Off Plans

Four of six private sector benchmarked companies transitioned from a traditional leave
plan to a PTO plan. Specifically, Companies B, C, and H transitioned to a PTO plan that
consolidated all paid leave into one category. These companies transitioned their paid
leave benefits programs to reduce and manage paid leave costs and absenteeism.

   Company B, an energy company, transitioned from a traditional paid leave benefits
    program that included annual leave, sick leave, bereavement leave, and personal


9
 General purpose paid leave that can be used for reasons important to the employee that may not be covered by
other forms of leave.
                                                        4
Leave Benefits and Paid                                                                                  HR-WP-14-001
 Holidays Benchmarking


     days as separate components. As part of the transition, Company B reduced the
     overall paid leave days provided to employees and froze all accrued sick leave.

    Company C, an areospace company with a unionized workforce, transitioned from a
     traditional paid leave plan that included vacation leave, sick leave, and personal
     days as separate components. As part of the transition, Company C froze all
     accrued leave and required employees to use it in a 3-year period.

    Company H, an educational institution, transitioned from a traditional leave plan that
     offered sick and annual leave as separate components. As part of the transition,
     Company H froze all accrued sick leave10 and kept those balances in a separate
     program.

    When transitioning to a PTO plan, all three companies modified their short-term
     disability11 programs by reducing the waiting period to apply for the benefit. The
     program allows employees to use the benefit after using between 5 and 8
     consecutive PTO days for an illness. This mitigated the risk of employees using all of
     their PTO days as sick leave. Upon transition, Company B also froze all sick leave
     accruals and employees were only allowed to use those days to supplement their
     short-term disability benefits. For example, if an employee receives 80 percent of his
     or her salary while on short-term disability, he or she can apply the cash equivalent
     of frozen sick leave to increase his or her short-term disability salary to 100 percent.
     Organizations that transitioned to a PTO plan noted that updating their short-term
     disability program to complement the PTO plan was critical to its success.

Company F, an energy company, transitioned from a traditional leave plan to a PTO
plan that combines annual leave and personal days while offering sick leave as a
separate component. Although sick leave is typically included in a PTO, Company F
specifically chose to keep this program separate because of its employee
demographics, which included a younger workforce. Company F was concerned that
these employees would not set aside any of their PTO leave for unforeseen
emergencies and illnesses. Company F transitioned to a PTO plan to reduce its paid
leave costs.

Traditional Leave Plans

Traditional leave plans contain separate categories of leave, such as annual and sick,
that employees can only use for specific reasons. Two private sector companies and
both government agencies offered traditional leave plans, and Companies A and E
recognized the value of offering personal days as an additional component.




10
   Company H did not provide any information regarding accrued annual leave.
11
   A type of insurance that pays a percentage of an employee's salary for a specified period, if the employee is ill or
injured and cannot perform the duties of his or her job.
                                                         5
Leave Benefits and Paid                                                                          HR-WP-14-001
 Holidays Benchmarking


Company A, a postal organization, offers annual/vacation leave and personal days.
Company A replaced sick leave days with a limited number of personal days, allowing
employees to take time off at their own discretion. Company A also implemented a
short-term disability program allowing employees to receive 70 percent of their pay if
they were ill for an extended period. Upon eliminating the sick leave category, Company
A allowed employees to supplement their short-term disability benefits with their
accrued sick leave balances. Company A noted that replacing sick leave with personal
leave reduced absenteeism from 17 to 14 days per employee. Six months after
implementing the changes, it held focus sessions that revealed that overall the program
decreased the administrative workload for team members by 80 percent.

However, Company E, with a workforce similar to the Postal Service's workforce, offers
two types of leave plans that vary across employee type (bargaining and
nonbargaining). Bargaining employees receive sick leave, annual leave, and personal
days and nonbargaining employees receive a hybrid plan that offers annual leave and
personal days. Full-time bargaining employees receive annual leave as a lump sum and
part-time bargaining employees accrue it based on the number of hours worked per
week. In addition to annual leave, bargaining employees also receive personal and sick
days. Nonbargaining employees accrue annual leave based on tenure and receive
personal days.

Companies D and G, the government agencies, offer plans that include separate annual
and sick leave components and are similar to the plans that the Postal Service offers.

Holidays and Floating Holidays

All benchmarked organizations provide between 8 and 12 paid holidays each leave
year; however, this number varies by industry and individual work groups within
organizations based on consumer and operational demands. For example, Company E,
a parcel delivery company, has high customer demand for parcel services during peak
holiday seasons. As a result, it provides employees with additional personal days they
can use as additional holidays as long as the company can operate without logistical
disruption.

Companies B and F, both private sector benchmarked companies, offer a floating
holiday to their employees. Company F provides the benefit to be consistent with
competitors and Company B does so to compensate a certain group of employees who
do not receive the same holidays as the rest of the company. For example,
management give employees who do not have an alternate work schedule12 this benefit
to increase the fairness of the program across work groups.




12
  Alternate work schedules allow employees to work the same number of hours per week that they normally would
but on an atypical schedule (such as working 80 hours over 9 days and taking every other Friday off).
                                                         6
Leave Benefits and Paid                                                                                   HR-WP-14-001
 Holidays Benchmarking



Military Leave

As a part of their benefits package, six of the eight benchmarked organizations offer
military leave, which provides time off from work for employees to fulfill military
commitments.13 Four of the six companies are private sector organizations that offer
differential pay for military leave. This provides employees the difference in pay if their
military pay is less than their regular salary. However, companies structure this benefit
in different ways. Company B provides full pay for 3 months before differential pay
begins. Company E provides differential pay up to 1 year, which is similar to the
6 months of differential pay Company H offers. The remaining organizations, two
government agencies, provide 100 percent of an employee's salary for 15 days.

Carryover

Seven of eight benchmarked organizations allow employees to carry over leave days
from year to year. Four of the seven organizations limit the leave employees can carry
over to no more than the amount of leave employees are eligible to accrue in a single
leave year. Company F has an additional restriction on its carryover benefit that
requires employees to use 2 weeks of PTO each year and they can carry any amount
above this to the following year. This means an employee with 3 weeks of leave can
only carry over 1 week to the following year. We found the fewest number of days that
an employee could carry over was 3 and the highest number was 36.

Limiting the leave employees can carry over decreases the money the company must
pay out upon employee separation. In addition, it reduces the money a company must
set aside to cover the liability related to paying employees for leave balances.
Company C owed employees about $385 million for unused leave before reducing its
carryover benefit. Similarly, Company A only allows employees to carry over up to
5 personal days each leave year. Before instituting this policy, Company A allowed
employees to carry over an unlimited number of sick days,14 which became a large
liability for the organization that had already been experiencing financial losses. By
limiting the personal days its employees can carry over, Company A can better project
costs each year. See Table 1 for leave carryover offerings from the benchmarked
organizations.




13
     The other two organizations may also offer this benefit but they did not provide any information during our review.
14
     Company A replaced sick leave with personal leave.
                                                              7
Leave Benefits and Paid                                                                     HR-WP-14-001
 Holidays Benchmarking




           Table 1. Type of Leave Carried Over Each Year by Organization

                                             Type of Leave Carried Over Each Year
               Company               Annual/Vacation Leave Personal Leave      Sick Leave
                                             (days)               (days)          (days)
         Company A                                        0                5             0
         Company B                                         20-30                 0               0
         Company C                                             5                 0               0
         Company D                                            30                 0   Unlimited
         Company E                                             0                 0               0
         Company F                                          3-10                 0               0
         Company G                                            30                 0   Unlimited
         Company H                                         14-36                 0               0
       Source: U.S. Postal Service Office of Inspector General (OIG) analysis.


Companies A, C, and F noted that in the past when they did not limit the leave an
employee could carry over, many employees had saved multiple months of leave to use
later or cash out upon separation. This resulted in increased costs because the
companies had to pay out a higher amount of leave upon employee separation and set
aside funds in the interim to cover this cost. Also, employees’ ability to save large
amounts of leave was a challenge from a workforce predictability standpoint because
employees could use leave more often and for longer periods.

If the Postal Service significantly reduces sick leave carryover, the availability of leave
for short-term situations such as maternity would be affected. Therefore, the need for a
short-term disability program would be a critical consideration in any plan to change the
leave carryover benefit. Also, according to Postal Service management, higher annual
leave carryover limits provide an operational cushion by enabling employees to defer
leave use from the end of the year, which reduces the demand for annual leave during
the Postal Service’s busiest period. Implementing a leave program with no leave
carryover provision would create a demand for use during that period.

Cash Out

All eight organizations pay employees for unused leave balances. Two of the six private
sector companies cash out leave annually while the two government agencies cash out
leave when employees separate from the organization. A policy of cashing out leave at
separation may decrease an organization’s costs because of limits on leave carryover.
Conversely, an annual cash out policy may avoid separation payments that are based
on a higher income than when the leave was earned.


                                                       8
Leave Benefits and Paid                                                                            HR-WP-14-001
 Holidays Benchmarking


According to 2009 SHRM research, 17 percent of employers who offer a PTO plan
allow employees to sell unused paid leave. Of employers who offer a paid vacation
plan, 14 percent allow employees to sell unused vacation time.

BLS Data

We also reviewed data from the BLS15 regarding paid leave in the private sector. As
shown in Table 2, on average the private sector offers between 33 and 49 days of paid
leave depending on years of service.

                    Table 2. Private Sector Average Annual Paid Leave Days

                                                       Private Sector Years of Service
                      Type of Leave
                                                 1+           5+             10+            20+
                Paid Annual Leave Days                13           17              20             24
                Paid Sick Leave Days                  11           13              15             16
                Paid Holidays                          9             9              9              9
                Total Paid Leave                      33           39              44             49
                Source: BLS National Compensation Survey, 2013.

Similarly, the Postal Service offers between 36 and 49 days of total paid leave. Postal
Service employees receive more annual leave days for longer tenure and also receive 1
additional paid holiday, but sick leave is fixed at 13 days. As shown in Table 3, private
sector companies with PTO plans offer between 27 and 38 days of total paid leave,
significantly less than the average in the private sector and the Postal Service.

                         Table 3. Private Sector Average PTO Leave Days

                                                       Private Sector Years of Service
                      Type of Leave
                                                 1+           5+             10+            20+
                PTO Days                              18           23              26             29
                Paid Holidays                          9             9              9              9
                Total Paid Leave                      27           32              35             38
               Source: BLS National Compensation Survey, 2013.

Challenges

While the Postal Service could possibly reduce cost if it modifies its current leave
benefits program, it will likely face several challenges in pursuing any changes.
Understanding and addressing these challenges is critical for the Postal Service to
successfully implementing any modifications to its current leave benefits program.
Challenges include legal requirements, union negotiations, updated information
technology to support changes, and assessments of the impact of benefit changes on
15
     National Compensation Survey – Benefits, 2013. Data are for companies with 500 or more employees.
                                                          9
Leave Benefits and Paid                                                     HR-WP-14-001
 Holidays Benchmarking


employees. Currently, legal requirements and employee unions bind the Postal Service
by law and contract to deliver specific benefits to its employees. Thus, when making
changes to its benefits program, the Postal Service must follow the law while
strategizing ways to negotiate changes with its unions to reduce the risk of pushback.
The Postal Service should consider the affect changing its leave benefits program will
have on the technology system it uses to administer and process leave. This kind of
transformation could require a large investment of time and money. Also, the Postal
Service will have to consider how these changes will impact its employees. See
Appendix B for additional details on these considerations.

Conclusion

The Postal Service’s leave benefits have generally remained unchanged for decades,
while the leave benefits of the private sector organizations have changed significantly.
Although the Postal Service's leave benefits and paid holidays are comparable in many
ways to those offered in the private sector, some differences exist. For example,
benchmarked organizations include a combined leave benefits program with fewer
leave categories, fewer total days of leave, reduced leave carryover amounts, and
restrictions on cashing out leave. Organizations implemented these changes primarily to
reduce costs and time employees are away from work.

While the Postal Service might reduce costs by modifying its current leave benefits
program, it will likely face several challenges in pursuing any changes. These
challenges include legal requirements, union negotiations, updated information
technology to support changes, and assessment of the impact of benefit changes on
employees. Understanding and addressing these challenges would be critical to
successfully implement any modifications to the Postal Service’s current leave benefits
program.




                                           10
             Leave Benefits and Paid                                                                           HR-WP-14-001
              Holidays Benchmarking


                                                  Appendix A: Leave Benefit Key Features of Benchmarked Organizations

Features                                                                                     Company

                                                                                                            Company E
                                 Company A          Company B           Company C                            (Private)        Company F                          Company H
                                  (Private)          (Private)           (Private)                                             (Private)                          (Private)
                                                                                              Company D        Parcel                            Company G
               Postal Service       Postal              Energy            Aerospace         (Government)      Delivery            Energy        (Government)       Education
Leave Plan     Separate          Separate         Consolidated         Consolidated         Separate       Separate         Consolidated       No information   Consolidated
Type           annual and        annual and       all leave into       all leave into       annual and     annual, sick,    all leave into     provided         all leave into
               sick leave        personal         one category         one category         sick leave     and personal     one category                        one category
               categories        leave                                                      categories     leave            with a separate
                                 categories                                                                categories       sick leave
                                                                                                                            category
Employee       Years    Days     Years   Days      Years     Days       Years    Days       Years   Days    Years   Days     Years      Days    Years    Days   Years    Days
Tenure and                                                                                                                                                               16-22
                  <3        13     1-6    21        1-4         20         <1       10        <3      13     1-4       14      <3        12        <3      13       <1
Leave Days                                                                                                                                                               days
                3-15        20    7-13    28        5-9       22.5        1-4       15      3-15      20     5-9       21     3-9        17      3-15      20
                                                                                                                                                                         (Varies
                 >15        26     14-    35      10-14         25        5-9       20       >15      26   10-19       28   10-14        22       >15      26
                                                                                                                                                                         with
                                    20                                                                                                                                   level)

                                  >21     42      15-20       27.5     10-14        22                     20-24       35   15-19        25                        1-x   +1 day
                                                    >20         30      15 or       25                       >25       42   20-24        28                              per
                                                                                                                                                                         year of
                                                                        more                                                   25        30
                                                                                                                                                                         service
                                                                                                                                                                         (max
                                                                                                                                                                         26
                                                                                                                                                                         days)

Sick Leave                  13                0                    0                    0             13   Union 4-6                     10                13   No information
                                                                                                                                                                provided



Personal       Nonunion (up                   7                    0                    0              0   Nonunion                        0                0   No information
Days           to 4 hrs a pay                                                                              7-12                                                 provided
               period)

                                                                                             11
              Leave Benefits and Paid                                                                          HR-WP-14-001
               Holidays Benchmarking


Features                                                                                    Company

                                                                                                           Company E
                                      Company A        Company B         Company C                          (Private)         Company F                          Company H
                                       (Private)        (Private)         (Private)                                            (Private)                          (Private)
                                                                                           Company D           Parcel                            Company G
                Postal Service         Postal             Energy          Aerospace       (Government)        Delivery           Energy         (Government)      Education
Short Term      Not offered        Pays 70% of       Benefit offered    Benefit offered   Not offered      No                No information    Not offered      No information
Disability                         income after      after 7th day of   after 5th day                      information       provided                           on number of
Program                            5th day of        illness            of illness                         provided                                             days provided
                                   illness
Annual                        55              0                20-30                  5               30                 0             3-10                30           14-36
Leave Carry
Over Days
Sick            Unlimited                        0                  0                 0   Unlimited                      0                 0   Unlimited                      0
Leave Carry
Over Days
Personal        Nonbargaining                    5                  0                 0                0                 0                 0                0                 0
Leave Carry     employees, no
Over Days       more than half
                work day
Holidays                   10      No                          10-11    ~12                           10                 8               10                10   No information
                                   information                          *varies by                                                                              provided
                                   provided                             state and
                                                                        location

Floating        Available to                     0   1 *available to    No information                 0                 0                 1                0                 0
Holidays        some                                 employees who      provided
                bargaining unit                      receive 10
                employees                            holidays due to
                                                     work type
              Source: OIG analysis.




                                                                                           12
Leave Benefits and Paid                                                      HR-WP-14-001
 Holidays Benchmarking


                               Appendix B: Challenges

Legal Requirements

Legal requirements bind employers to deliver specific benefits to their employees.
Managing paid leave benefits requires an understanding of federal, state, and local laws
that mandate or regulate payment of wages to employees who take certain types of
leave. Title 39 U.S.C. requires the Postal Service to provide employee compensation
and benefits comparable to those the private sector provides its employees. In addition,
the Postal Service must maintain categories for annual and sick leave; therefore, the
need for legislative changes would be a critical consideration in any plan to eliminate
the leave categories from Postal Service benefits.

For organizations with a national workforce (like Companies A and E), state and local
laws are a large consideration as paid leave and benefits programs must follow federal,
state, and local regulations. We found that establishing a core benefits program at the
corporate level that meets federal requirements enables employers to create a
foundation and adjust the benefits program by city or state.

Employee Unions

The Postal Service cannot unilaterally change benefits for bargaining employees.
Because benefits are one of many components negotiated with the unions, the Postal
Service may be forced to pursue changes to employee leave benefits at the cost of
other negotiated components. For certain nonbargaining employees, the Postal Service
has an obligation to consult with management associations about programs affecting
those employees as well. This can impact its negotiation and consultation strategies.

Company E, a Postal Service provider, has various regional union agreements.
Company E intends to keep its leave benefits structure consistent across the
organization. However, because of union negotiations, benefits for bargaining
employees differ from those for nonbargaining employees and consistency was
impossible. Specifically, although all employees at Company E receive holidays, annual
leave, and personal days, management advance bargaining employees leave under the
union agreement while nonbargaining employees must accrue their leave. Bargaining
employees also receive sick leave days while nonbargaining employees receive
personal leave days.

Information Technology

Technology is a key consideration when optimizing a paid leave benefits program.
Improving and changing a paid leave benefits program not only affects the structure and
processes of an organization but impacts the organization’s technology and software
systems. If an organization chooses to adjust its program by switching from a traditional
paid leave benefits program to a PTO plan, it must consider software changes as well.
This process is not only costly but can be time consuming. Software must be adapted
                                           13
Leave Benefits and Paid                                                       HR-WP-14-001
 Holidays Benchmarking


and able to run efficiently before paid leave benefits program changes are rolled out. If
the software system is not adjusted, the human resources and payroll departments, as
well as all employees and supervisors, will experience administrative difficulties that
increase costs and workload.

Company A’s biggest lesson learned throughout its transition process was that it
needed to involve its information technology department earlier to smoothly implement
and document system changes. Company A did not involve its information technology
department until it wanted to make changes. The company realized that this was a risky
move, because the changes may not be completed in time for the union negotiations.
Company A was fortunate a subsidiary company ran its software system, which enabled
Company A to upgrade the software within 2 to 3 months. These upgrades involved
changing all the codes in the system (for example, changing “sick days” to “personal
days”). The software change was costly. Had Company A involved its information
technology department before the union negotiations, it would have understood what
structural and technological changes it needed to make. Company A also began to audit
its information technology system to document changes for future reference.

Companies A and E noted that, because combining all leave into a PTO plan would
have entailed a large technological cost, they opted to include personal days in their
traditional plans instead of switching to a PTO plan.

Employee Impact

When considering options to reduce or eliminate features of its leave benefit program,
the Postal Service should evaluate how change would impact employees. Further, it
should consider how changes to one leave benefit would impact another and the overall
compensation. For example, if leave carryover was significantly reduced, the sick leave
service credit would be impacted, along with available leave for long-term needs such
as maternity.

About 30 percent of Postal Service employees are eligible to retire.16 As one generation
leaves, a new generation will eventually come on board. This may require a new
perspective on leave benefits and how new employees will use them. For example,
when Company F switched to a PTO it kept sick leave in a separate program because
of employee demographics, which included a younger workforce. Company F was wary
younger employees might not set aside a portion of their PTO days to use as sick leave
if they became ill.

Employers recognize that a total benefits package goes beyond compensation and is
necessary to attract, motivate, and retain today's workforce. When establishing a new
program, employers should devise a communication strategy to educate all employees
and stakeholders, with an emphasis on program value and how the changes will impact
the current program. Changing current leave types will require a series of planned

16
     As of June 2013.
                                            14
Leave Benefits and Paid                                                 HR-WP-14-001
 Holidays Benchmarking


employee communications to help them understand changes to their leave benefits.
The Postal Service could do this by using tools, such as pamphlets, informational
sessions, compensation statements, workshops, employee town meetings, and social
networking to educate employees. It could also use its Organizational Change
Management group, whose mission is to minimize the impact on Postal Service
employees whose organizations are undergoing workforce restructuring and reshaping.




                                         15
